<html>
<title> - MOVING FORWARD AFTER THE NATIONAL TRANSPORTATION SAFETY BOARD REPORT: MAKING METRO A SAFETY LEADER</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






 MOVING FORWARD AFTER THE NATIONAL TRANSPORTATION SAFETY BOARD REPORT: 
                      MAKING METRO A SAFETY LEADER

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON FEDERAL WORKFORCE,
                    POSTAL SERVICE, AND THE DISTRICT
                              OF COLUMBIA

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 23, 2010

                               __________

                           Serial No. 111-123

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform




                  U.S. GOVERNMENT PRINTING OFFICE
 64-929 PDF               WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             JOHN J. DUNCAN, Jr., Tennessee
JOHN F. TIERNEY, Massachusetts       MICHAEL R. TURNER, Ohio
WM. LACY CLAY, Missouri              LYNN A. WESTMORELAND, Georgia
DIANE E. WATSON, California          PATRICK T. McHENRY, North Carolina
STEPHEN F. LYNCH, Massachusetts      BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                JIM JORDAN, Ohio
GERALD E. CONNOLLY, Virginia         JEFF FLAKE, Arizona
MIKE QUIGLEY, Illinois               JEFF FORTENBERRY, Nebraska
MARCY KAPTUR, Ohio                   JASON CHAFFETZ, Utah
ELEANOR HOLMES NORTON, District of   AARON SCHOCK, Illinois
    Columbia                         BLAINE LUETKEMEYER, Missouri
PATRICK J. KENNEDY, Rhode Island     ANH ``JOSEPH'' CAO, Louisiana
DANNY K. DAVIS, Illinois             BILL SHUSTER, Pennsylvania
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

Subcommittee on Federal Workforce, Postal Service, and the District of 
                                Columbia

               STEPHEN F. LYNCH, Massachusetts, Chairman
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         BRIAN P. BILBRAY, California
DANNY K. DAVIS, Illinois             ANH ``JOSEPH'' CAO, Louisiana
ELIJAH E. CUMMINGS, Maryland         ------ ------
DENNIS J. KUCINICH, Ohio
WM. LACY CLAY, Missouri
GERALD E. CONNOLLY, Virginia
                     William Miles, Staff Director














                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 23, 2010...............................     1
Statement of:
    Hersman, Deborah A.P., chairman, National Transportation 
      Safety Board; Catherine Hudgins, Board of Directors, first 
      vice chairman, Washington Metropolitan Area Transit 
      Authority; Richard Sarles, interim general manager, 
      Washington Metropolitan Area Transit Authority; Matthew 
      Bassett, Chair, Tri-State Oversight Committee; Anthony W. 
      Garland, recording secretary/Local 689 safety officer, 
      Amalgamated Transit Union, Local 689; and Francis 
      DeBernardo, Chair, Riders' Advisory Council................    11
        Bassett, Matthew.........................................    50
        DeBernardo, Francis......................................    61
        Garland, Anthony W.......................................    57
        Hersman, Deborah A.P.....................................    11
        Hudgins, Catherine.......................................    19
        Sarles, Richard..........................................    29
Letters, statements, etc., submitted for the record by:
    Bassett, Matthew, Chair, Tri-State Oversight Committee, 
      prepared statement of......................................    52
    Connolly, Hon. Gerald E., a Representative in Congress from 
      the State of Virginia, prepared statement of...............    86
    DeBernardo, Francis, Chair, Riders' Advisory Council, 
      prepared statement of......................................    63
    Garland, Anthony W., recording secretary/Local 689 safety 
      officer, Amalgamated Transit Union, Local 689, prepared 
      statement of...............................................    58
    Hersman, Deborah A.P., chairman, National Transportation 
      Safety Board, prepared statement of........................    14
    Hudgins, Catherine, Board of Directors, first vice chairman, 
      Washington Metropolitan Area Transit Authority, prepared 
      statement of...............................................    21
    Lynch, Hon. Stephen F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     3
    Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
      District of Columbia, prepared statement of................     6
    Sarles, Richard, interim general manager, Washington 
      Metropolitan Area Transit Authority, prepared statement of.    31

 
 MOVING FORWARD AFTER THE NATIONAL TRANSPORTATION SAFETY BOARD REPORT: 
                      MAKING METRO A SAFETY LEADER

                              ----------                              


                      THURSDAY, SEPTEMBER 23, 2010

                  House of Representatives,
Subcommittee on Federal Workforce, Postal Service, 
                      and the District of Columbia,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:25 p.m. in 
room 2203, Rayburn House Office Building, Hon. Stephen F. Lynch 
(chairman of the subcommittee) presiding.
    Present: Representatives Lynch, Norton, and Bilbray.
    Staff present: Aisha Elkheshin, clerk/legislative 
assistant; William Miles, staff director; and Dan Zeidman, 
deputy clerk/legislative assistant.
    Mr. Lynch. I would like to call this hearing to order. The 
Subcommittee on the Federal Workforce, Postal Service, and the 
District of Columbia's hearing will now come to order. I would 
like to welcome those Members in attendance.
    I know that Mr. Chaffetz was just with us at the earlier 
hearing, so he is in transit right now. And I would like to 
thank all of our witnesses and those in attendance this 
afternoon.
    The purpose of today's hearing is to explore the steps the 
Washington Metropolitan Area Transit Authority has taken to 
address the safety findings and recommendations contained in 
the recent National Transportation Board's issued Railroad 
Accident Report on June 22, 2009, Metro rail collision. The 
Chair, the ranking member, and the subcommittee members will 
each have 5 minutes to make an opening statement, and all 
Members will have 3 days to submit statements for the record.
    Hearing no objections, so ordered.
    As stated earlier today, our hearing has been called in 
order for the subcommittee to once again receive an update on 
the steps the Washington Metropolitan Area Transit Authority is 
taking to ensure that the Metro rail, bus, and para-transit 
services are operating at the highest possible levels of safety 
and reliability.
    Today's hearing, which marks the third subcommittee hearing 
held on the Washington Metro in the 111th Congress, will also 
entail a full discussion on the findings and recommendations 
contained in the National Transportation Safety Board's 
recently issued Railroad Accident Report on the June 22, 2009, 
Red Line collision, and the Washington Metro's efforts to 
address the NTSB's conclusions in that report.
    The Washington Metropolitan Area Transit Authority is the 
national capital area primary public transportation agency and 
provides service to a population of over 3\1/2\ million people 
within a 1,500 square mile area. Considering the estimated 40 
percent of the Federal employees who utilize the Washington 
Metro on a daily basis and the hundreds of thousands of D.C. 
area residents and tourists who rely on the system to navigate 
the Nation's Capital, it is critical that America's transit 
system, so-called, be at the highest level of dependability and 
safety.
    Since the June 22, 2009, Red Line collision which left 9 
people dead and 76 injured, serious questions have been raised 
by the Federal Transit Administration, the Tri-State Oversight 
Committee, and most recently the National Transportation Safety 
Board regarding deficiencies in the Washington Metro safety 
culture. Notably, the National Transportation Safety Board 
concludes that shortcomings in the Washington Metro's internal 
communications, in its recognition of hazards, its assessment 
of risk from those hazards, and its implementation of 
corrective actions are all evidence of an ineffective safety 
culture within the organization.
    In light of these concerns, I am particularly interested in 
hearing about the specific actions that the Washington Metro 
has pursued over the last several months to elevate and improve 
the organization's safety record and performance.
    I also look forward to discussing ongoing efforts to 
strengthen and empower the Tri-State Oversight Committee, which 
serves as the Washington Metro safety oversight agency in 
accordance with FTA regulations. I understand that the 
Washington Metro is currently navigating a complex transition 
period, and while today's hearing is aimed at addressing the 
the transit system safety and reliability challenges, we cannot 
ignore Washington Metro's financial challenges which, whether 
we like it or not, impact the organization's ability to achieve 
certain standards of safety.
    Additionally, I would like to note that the Federal 
Government has a role to play in promoting the safety and 
service of the Washington Metro, and I welcome the opportunity 
to hear more about what we here in Congress can do to help the 
Washington Metro at this time.
    Again, I would like to thank each of you for your 
willingness to be with us and to help the committee with its 
work, and I look forward to your participation in today's 
important hearing.
    [The prepared statement of Hon. Stephen F. Lynch follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Lynch. In light of my colleague and friend, Mr. 
Chaffetz s, absence, and it is understandable. We were in two 
competing hearings. I ran a little faster than he did to get 
over here, and he will be along directly. He is very diligent 
about that.
    I would like to recognize Ms. Eleanor Holmes Norton, 
Congresswoman from the District of Columbia, for 5 minutes.
    Ms. Norton. Thank you very much, Mr. Chairman. And thank 
you above all, as we come to the end of this session, for the 
way that you have pressed this subcommittee and the leadership 
on Metro matters. You indicated we have had three hearings. We 
even had a hearing before the collision. But, Mr. Chairman, you 
have taken the leadership in making sure that there was direct 
and timely and constant oversight from the Congress. I 
particularly appreciate that you are holding this hearing on 
the NTSB recommendations before Congress adjourns so that work 
can begin on them beyond what I am sure is already taking 
place.
    I want to emphasize again, Mr. Chairman, that beyond the 
obvious interest of members of the committee who are from this 
region, there is a strong Federal interest in what happens to 
Metro since, indeed, almost of half of the riders on weekdays 
are Federal employees, which is why we subsidize them to get to 
work. Anyone who doubts that need only think of the snow storms 
of the past winter, when it became clear that if Metro shuts 
down, so must the Government shut down.
    So we have an interest in Metro beyond even the private 
sector here, and particularly in the fact that it has for 
decades been plagued by a series of safety issues. The NTSB, of 
course, has been on top of these issues throughout, and this 
subcommittee has been at pains to see that others with 
oversight are also as diligent.
    Mr. Chairman, the most disturbing part of what we have 
known from briefings from the NTSB is that this tragedy was 
preventable. There was no signal that there was a train on the 
track, and yet there were systems in the hands of Metro which 
could have, indeed, been in use. That has led the subcommittee 
to focus on safety, and the NTSB's recommendations on safety 
culture is the recommendation that it be, in my view, at least, 
it has focused most of my attention.
    I hope this won't be seen as a reflection on the workers, 
because, as I questioned Ms. Hersman and others at NTSB, I 
learned that NTSB was almost alone in not having a non-punitive 
safety culture. Apparently, other common carriers understand 
that the safety culture has to be non-punitive, so that if you 
report, that report won't result in punishment. Why would 
anybody report then against their own personal interest? Yet, 
it appears that is the way in which Metro has operated. That is 
not the way in which, according to NTSB, trains operate or 
airlines operate. They have long had non-punitive cultures. I 
am sure if we had such a culture at Metro much of the rest 
would take care of itself.
    Mr. Chairman, I note that, even as we are in session, the 
subcommittee, the NTSB Reauthorization Act is going to be on 
the floor today, and I am pleased to note that. I have a 
section of that bill that is far less important than the 
reauthorization, itself, but it would clarify that NTSB can 
make interim safety recommendations.
    NTSB was on point in making all of the recommendations that 
should have been followed. At the same time, we could hardly 
blame Metro, which only got the first $150 million, this year 
it is going to get another $150 million, for not having 
replaced the trains and the tracks and the rest, although I do 
believe the track matter did not require that the overhaul of 
the system that we now know must take place, and Metro is 
certainly to be held accountable for that.
    I regret that only after the tragedy did the first $150 
million come, but now they seem to be coming in regular order, 
and I will be very, very interested to hear what progress Metro 
has made on these recommendations, most of which they were 
aware of simply by virtue of the trauma they have gone through 
even before the NTSB has given them a virtual track record to 
follow. If they go down that list, do what the NTSB says, I 
think all of us will feel safer.
    Thank you very much again, Mr. Chairman.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Lynch. I thank you.
    I am going to fully recognize my Republican colleagues when 
they do arrive, but in the interest of time what I would like 
to do is, first of all, ask all of our witnesses, it is the 
custom before this committee that anyone who is offering 
testimony must be sworn, so may I please ask you to rise. Raise 
your right hands.
    [Witnesses sworn.]
    Mr. Lynch. Let the record show that each of the witnesses 
has answered in the affirmative.
    I know that a few of you have been here before this 
committee and you understand the lighting system we have here. 
That little box in the middle of the table will flash green 
when you are to begin your testimony, and then after it turns 
yellow you are to wrap up your testimony, and then the red 
light indicates that your time has expired.
    What I would like to do is to first offer some brief 
introductions of our panelists.
    First of all, Deborah A.P. Hersman was sworn in as the 12th 
chairman of the National Transportation Safety Board on July 
28, 2009, following her nomination to the post by President 
Barack Obama and confirmation by the U.S. Senate. Chairman 
Hersman is also serving a second 5-year term as a board member 
on the National Transportation Safety Board.
    While I think initially we had a conflict for time, I think 
we have resolved that, which is important, and I appreciate 
your diligence in being here in the important role that you 
have played not only in identifying the causes of this 
accident, but also in the recommendations that you have made to 
make necessary corrections, so I am very happy that you will be 
able to join us for the full hearing.
    Ms. Catherine Hudgins is the first vice chairman of the 
Washington Metropolitan Area Transit Authority Board of 
Directors. Ms. Hudgins joined the Metro board in January 2004 
as an alternate director. She was appointed as principal 
director in 2008, representing Fairfax County, Virginia. Ms. 
Hudgins also was elected to the Fairfax County Board of 
Supervisors in November 1999 and is currently serving her third 
term.
    Richard Sarles was appointed interim general manager of the 
Washington Metropolitan Area Transit Authority by the Metro 
Board of Directors effective April 3, 2010. Notably, Mr. Sarles 
has more than 40 years of experience in the transit industry 
with New Jersey Transit, Amtrak, and the Port Authority of New 
York and New Jersey. He most recently retired from New Jersey 
Transit, where he served as Executive Director.
    Matthew Bassett serves as chairman of the Tri-State 
Oversight Committee, the joint organization that oversees Metro 
rail safety and security programs. Mr. Bassett works for the 
Virginia Department of Rail and Public Transportation. Prior to 
joining the Department of Rail and Public Transportation, he 
worked for the Maryland Department of Transportation's Rail 
Safety Oversight Programs.
    Anthony W. Garland is the recording secretary for the 
Amalgamated Transit Union, Local 689. Mr. Garland, originally a 
Metro bus operator, has more than 25 years experience with 
Local 689. Prior to being elected recording secretary, Mr. 
Garland served as a shop steward, executive board member, and 
assistant business agent of Local 689.
    Welcome, Mr. Garland.
    Francis DeBernardo is the Chair of the Riders' Advisory 
Council for the Washington Metropolitan Area Transit Authority, 
which provides the Washington Metro Board with the riders' 
perspective on issues affecting Metro bus, Metro rail, and 
Metro access. Mr. DeBernardo is also the Executive Director of 
the New Ways Ministry located in Mount Ranier, Maryland.
    Welcome all.
    What I would like to do then is to ask, Ms. Hersman, if you 
would like to begin by offering your opening statement for 5 
minutes. Thank you.

    STATEMENTS OF DEBORAH A.P. HERSMAN, CHAIRMAN, NATIONAL 
   TRANSPORTATION SAFETY BOARD; CATHERINE HUDGINS, BOARD OF 
 DIRECTORS, FIRST VICE CHAIRMAN, WASHINGTON METROPOLITAN AREA 
  TRANSIT AUTHORITY; RICHARD SARLES, INTERIM GENERAL MANAGER, 
    WASHINGTON METROPOLITAN AREA TRANSIT AUTHORITY; MATTHEW 
   BASSETT, CHAIR, TRI-STATE OVERSIGHT COMMITTEE; ANTHONY W. 
    GARLAND, RECORDING SECRETARY/LOCAL 689 SAFETY OFFICER, 
 AMALGAMATED TRANSIT UNION, LOCAL 689; AND FRANCIS DEBERNARDO, 
                CHAIR, RIDERS' ADVISORY COUNCIL

               STATEMENT OF DEBORAH A.P. HERSMAN

    Ms. Hersman. Thank you. Good afternoon, Chairman Lynch, 
Delegate Norton, members of the committee. The Safety Board is 
pleased to return to brief you on the findings and the 
recommendations from our report on the June 22, 2009, collision 
that occurred near Fort Totten. It resulted in 9 fatalities and 
52 injuries.
    About a month after the accident, actually, a couple weeks, 
July 13th, we issued two early recommendations. We testified 
before your committee the day after that on July 14th. On 
September 22nd we issued nine additional recommendations. We 
held a public hearing on February 23rd through 25th. We held 
our Board meeting, where we adopted the final report and 23 
more recommendations on July 27, 2010. And on August 9th our 
Board, the five members of the National Transportation Safety 
Board, met with the Metro Board, all the members of their 
Board, to discuss our findings.
    We determined the probable cause of the accident was the 
failure of the track circuit modules to cause the automatic 
train control system to lose detection of the train, and thus 
transmit speed commands to the trailing train up to the point 
of impact. WMATA's failure to ensure that enhanced track 
circuit verification test was institutionalized and used 
system-wide, which would have identified the faulty track 
circuit before the accident; the lack of a safety culture 
within WMATA; WMATA's failure to maintain and monitor the 
performance of its automatic train control system; GRS and 
Alstom Signal Inc.'s failure to provide a maintenance plan to 
detect spurious signals that could cause its track modules to 
malfunction; ineffective oversight by the Metro Board; TOC's 
ineffective oversight and lack of oversight authority; and 
FTA's lack of statutory authority.
    With your permission, I would like to show a short 
animation of the accident sequence for the committee. The 
motion of the struck train, Train No. 214, was derived from 
data retrieved from event recorders. The striking train, No. 
112, did not have event recorders; consequently, its motion is 
derived by simulation of speed commands that were transmitted 
from the train control system and the train performance 
characteristics.
    The animation is going to show two views of the train in 
real time. The top of the screen shows an overhead view of both 
trains as they travel inbound on the red line. The striking 
train is indicated by the blue arrow, and the struck train, 
214, is shown by the orange arrow. The yellow dots on the track 
delineate each segment of the track, each circuit.
    WMATA's automatic train control system is designed to issue 
speed commands to trains to ensure that at least one unoccupied 
track circuit separates the trains. The middle section of the 
screen shows the time of day, speed commands issued by the 
train control system, and the actual speeds of each train. 
Finally, the bottom of the screen shows a view riding along 
with the striking train up to the point of the collision.
    [Video shown.]
    Ms. Hersman. The animation begins with Train 112's 
departure from Tacoma Station about 2\1/2\ minutes before the 
collision. Train 112 is being operated in the automatic mode, 
where the train responds automatically to the speed commands 
from the train control system.
    At this time, Train 214 is approaching Fort Totten and is 
about eight-tenths of a mile ahead of train 112. Train 214 is 
being operated in the manual mode, where the operator controls 
the motion of the train according to the speed commands from 
the train control system. Notice that the speed command for 
Train 112 varies with the position of the train ahead. Its 
actual speed lags behind the speed command.
    At this point the system has brought the speed command for 
Train 112 to zero due to the presence of Train 214 ahead, and 
Train 112 automatically begins to slow to a stop.
    The lead train, 214, is on a faulty track circuit. The 
speed command displays zero, and the operator of 214 begins to 
manually slow the train to a stop. Because the train control 
system cannot detect Train 214, it responds as if the track 
ahead is clear and transmits an errant speed command of 55 
miles per hour. Train 112 automatically begins accelerating to 
55 miles per hour, with Train 214 stopped and undetected just 
ahead.
    According to sight distance testing, at 470 feet apart the 
operator of Train 112 had a full view of Train 214. 
Approximately 3 seconds after the Train 112 operator had the 
full view of the stopped train, she applies emergency braking. 
Braking action was normal, but there was only enough time to 
slow the train a few miles per hour.
    [Video concludes.]
    Ms. Hersman. Thank you for inviting me to testify and 
allowing me to show the animation. I am ready to answer any 
questions when it is time.
    [The prepared statement of Ms. Hersman follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Lynch. I know that they have just called for a vote, so 
that is why the other Members are delayed, but I am going to 
ask the gentlelady from the District of Columbia, Eleanor 
Holmes Norton, to please take over the hearing, and I will run 
over and vote and come right back.
    Thank you.
    Ms. Norton [presiding]. Thank you very much, Ms. Hersman.
    Ms. Hudgins.

                 STATEMENT OF CATHERINE HUDGINS

    Ms. Hudgins. Thank you, Chairman Norton. Madam Chairman and 
members of the subcommittee, my name is Catherine Hudgins and I 
am honored to appear here before you today as the first vice 
chairman of the Board of Directors of the Washington 
Metropolitan Area Transit Authority, Metro.
    I would like to speak first about improving safety, the top 
priority of Metro Board, and how we are currently addressing 
the NTSB recommendations. I would also like to address our 
current significant financial challenges, which relates 
directly to enhancing our state of good repair and operational 
reliability.
    Above everything else, Metro must provide safe and reliable 
service. To this end, we have focused on three goals: build a 
new safety culture throughout the organization, from the Board 
to the general manager to the bus and rail operators, 
mechanics, and track walkers; two, invest in the equipment, 
facilities, and personnel needed to enhance safety; and, three, 
create the policies and procedures that enhance system safety. 
In doing so, we will restore public confidence in the safety 
and quality of our service and build trust among policymakers, 
legislators, and our stakeholders.
    I know that these goals will not be achieved overnight. We 
are doing everything that we can to move Metro toward these 
goals.
    On safety, safety is the top priority of Metro, for the 
Board, for Metro management, for all our staff from top to 
bottom. The Board intends to ensure that, to the best of our 
ability, each and every NTSB recommendation to Metro associated 
with its review of the June 22, 2009, accident is implemented.
    Following the NTSB's July 27th recommendations, the Metro 
Board convened a special Board meeting in August, during which 
we heard directly from the NTSB about what we could do, both as 
a Board and Metro as a whole, to cultivate a safety culture. I 
greatly appreciate the thoroughness of the information that 
NTSB Chairman Deborah Hersman and her colleagues shared with us 
that day. Our Board heard what needs to be done, and has 
started taking specific actions to respond.
    One week ago Metro Board's Customer Service Operations and 
Safety Committee voted to approve a change to our Board 
governance to establish a distinct Safety and Security 
Committee. The committee will be chaired by Mort Downey, who 
was appointed to our Board earlier this year by Federal 
Government as a voting member. The Customer Service, 
Operations, and Safety Committee also moved a new mission 
statement that clearly places safety at the forefront of the 
transit agency. The statement reads: Metro operates and 
maintains a safe, reliable, and effective transit system that 
enhances mobility, improves the quality of life, and stimulates 
economic development in the metropolitan area.
    Both actions taken in the committee last week must go to 
our full Board for adoption on September 30th. I assure this 
committee that my fellow Board members are wholeheartedly 
endorsing these changes.
    In addition to these actions, the Metro Board has taken 
other steps to address NTSB recommendations. We have begun by 
dedicating $30 million from our capital budget to assist in 
responding to NTSB's recommendations. On July 22nd the Metro 
Board approved Metro's revised whistleblower protection policy 
to encourage employees to raise safety-related concerns. And, 
finally, in July the Board approved a contract to replace the 
1000 series cars, which are the oldest rail cars in the fleet, 
with the new generation 7000 series rail cars.
    On Metro s financial situation, Metro faces the same 
financial issues which practically every other major transit 
system in the United States faces. In this period of economic 
decline, many of our revenue sources, such as advertising and 
fares, have decreased, and the funds available for our 
subsidies have declined. Transit becomes one of a number of 
vital services competing for funding with fewer resources 
available.
    We are exceptionally pleased that our State and local 
partners have demonstrated a long history of strong financial 
support for this system. That strong support is continuing even 
in these tough economic times, as our jurisdictional partners 
have provided over half a billion dollars to support Metro 
operations in fiscal year 2011, an increase of 5 percent over 
fiscal year 2010, while many other local services are taking 
cuts.
    I would like to wrap up and say that we are committed as a 
Board, and that as a Metro Board member, Madam Chairwoman, I 
would like to conclude and want to make sure that you 
understand that we are committed to moving people safely and 
reliably and comfortably. It is our mission, and it is the 
proud history of Metro.
    [The prepared statement of Ms. Hudgins follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Norton. Thank you very much, Ms. Hudgins.
    Mr. Sarles.

                  STATEMENT OF RICHARD SARLES

    Mr. Sarles. Madam Chair, I thank you for the opportunity to 
testify before you today. I am Richard Sarles, general manager 
of the Washington Metropolitan Area Transit Authority.
    In Metro there is no higher value than safety. I want this 
subcommittee and our riders to know that we recognize that our 
long-term success depends on our ability to build a safety 
culture that is dedicated to prevention and continual 
improvement.
    What is being done?
    First, as outlined during my testimony on April 21st to the 
Oversight and Government Reform Committee, I have developed and 
we have made significant progress in implementing a 6-month 
action plan to move Metro forward in addressing our greatest 
challenges, which I see as safety, service, reliability, and 
financial stability.
    These are the fundamental areas that Metro has focused on 
for the past 5 months. A full update on each of them is in my 
written testimony, but I want to take the time today to 
highlight our progress to improve safety and our safety 
culture.
    We have strengthened our safety department with a team that 
has more than 230 years of experience. Chief Safety Officer 
James Dougherty leads the team and reports directly to me, as 
well as provides monthly updates to the Board of Directors on 
our safety progress.
    Metro has worked closely with the Tri-State Oversight 
Committee to develop corrective action plans in response to 
findings from both external and internal audits and 
investigations. We have closed 223 CAPs since 2004, currently 
33 CAPs remain open. I have communicated to Metro staff that 
continuing to close CAPs is a top priority.
    To give our employees the safety skills they need on the 
job, we have expanded safety training throughout the 
organization.
    Our commitment to a new safety culture cannot be 
accomplished without a financial commitment. The WMATA Board 
anticipated this by including $6.9 million in Metro's operating 
budget to address audit FTA recommendations. The Board also 
established a $5 billion 6-year capital plan, the largest 
capital budget since the completion of the rail system, to 
ensure that we can make needed equipment and infrastructure 
safety and state of good repair improvements.
    While we work on reinforcing our safety culture, we have 
taken action to comply with NTSB recommendations.
    Now I would like to turn to the work we are doing to 
respond to each of the recommendations associated with the June 
22nd accident.
    First, parasitic oscillation. We have already replaced 
track circuit modules, at 34 of the 103 locations, and are 
developing plans to replace the remaining track circuit 
modules. We are increasing the frequency of our inspections, 
and the loss of shunt review will continue twice daily until 
the testing is completed on the real-time alert system.
    Next, improving internal communications. We initiated a 
cross-functional committee to develop procedures for clear 
communication and to document receipt of all technical 
bulletins and other safety-related information.
    Next, wayside communications. We are identifying all 
locations throughout the rail system where unnecessary wayside 
communication equipment exists, and are developing a plan to 
disable and/or remove it.
    Next, safety analysis. We have retained an independent firm 
to perform a rigorous safety analysis of the automatic train 
control system and provide recommendations. Once the analysis 
is complete, we will address the recommendations.
    Next, cable installation resistance testing. Test 
procedures and standards are in development and should be read 
in November 2010.
    Next, Federal Transit Administration final report. All FTA 
findings related to Metro were addressed and the FTA has 
reviewed and accepted the proposed actions. now we will 
complete those actions.
    Next, operational data on onboard recorders. The review of 
operational data from onboard event recorders will be 
incorporated into monthly senior staff meetings. Local 689 
Union representatives will be invited to participate.
    Next, non-punitive safety reporting program. We established 
an anonymous hotline, reinforced our whistleblower policy, and 
we have started discussions with Local 689 on a non-punitive 
near-miss reporting program.
    Next, hazard identification, hazard management. Metro's 
Executive Safety Committee has started reviewing safety audits 
and open corrective action plans. Removal of 1000 series cars--
on July 26th, we awarded a contract to replace the 1000 series 
cars.
    Installation and maintenance of on-board event recorders. A 
plan has been developed to equip and maintain the 4000 and 1000 
series cars with onboard event recorders.
    In conclusion, Madam Chair, at Metro there is no higher 
value than safety. We want riders to know that we recognize our 
long-term success depends on our ability to change our safety 
culture to one dedicated to prevention and continuing 
improvement. Establishing a new safety culture in this 
fundamental way will require enduring consistent commitment, 
from the top all the way through the organization. The change 
will take years to become ingrained, but we have begun putting 
the foundation in place.
    In the last year, Metro has faced a number of challenges, 
and there are more to come, but we have also forged better 
partnerships with the agencies that provide safety oversight, 
and with their help and the leadership of our Board, we are on 
a path to continuing improvement of safety and service 
reliability.
    [The prepared statement of Mr. Sarles follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Norton. Thank you, Mr. Sarles.
    Mr. Bassett.

                  STATEMENT OF MATTHEW BASSETT

    Mr. Bassett. Good afternoon, Chairman Norton. On behalf of 
the Tri-State Oversight Committee, thank you for the 
opportunity to discuss the ongoing challenges and recent 
improvements to the Washington Metropolitan Area Transit 
Authority's rail safety efforts.
    Since our committee last testified on April 21st, both 
WMATA and the TOC have made significant progress in addressing 
safety shortcomings noted by Congress, the National 
Transportation Safety Board, the Federal Transit 
Administration, and the riding public. These entities have been 
steadfast partners in making the system safer.
    This May, the Governors of Maryland and Virginia and the 
mayor of the District of Columbia committed to increasing TOC 
funding, providing full-time staffing, and ensuring access for 
TOC members to immediately raise safety concerns to State 
transportation leaders. This led to the creation of the TOC 
Executive Committee, a working group which meets regularly to 
provide guidance and policy direction for the TOC.
    In July, Maryland hired a full-time TOC member, Mr. James 
Benton, who brings with him more than two decades of experience 
in rail car maintenance and rail operations from the Maryland 
Transit Administration. The District of Columbia is also in the 
hiring process for a full-time TOC member.
    On July 27th, TOC received NTSB's recommendation in 
response to the June 22, 2009, Fort Totten collision to fully 
address the Federal Transit Administration's March 2010 audit 
findings. We are committed to doing so and continue to work 
with FTA on this task, as well as WMATA.
    This summer TOC completed our triennial safety and security 
review of WMATA's rail operations. TOC members and consultants 
spent 3 weeks working with WMATA staff inspecting facilities 
and equipment, interviewing workers, and conducting an 
exhaustive document review. We planned to publish this document 
on our recently revamped Web site, [Web page here] by October 
9th.
    On September 13th the TOC Executive Committee revised the 
TOC memorandum of understanding, which provides our authority 
and operating framework. The revised MOU responds to concerns 
identified by FTA, the NTSB, and Congress by providing 
additional authority to the TOC chair and allowing the 
Executive Committee to take any action permitted by law, 
including suspending State capital funding, in the unlikely 
event that all options to resolve TOC safety concerns have been 
exhausted.
    Since the arrival of WMATA interim general manager, Richard 
Sarles, the TOC has been pleased to note that safety has been 
placed not just at the forefront of WMATA's rhetoric, but of 
their efforts, as well. His regular presence at TOC meetings, 
safety performance metrics, and long overdue restructuring of 
the WMATA Executive Safety Committee have guided a 
comprehensive response to the system's safety challenges. He 
has also hired several safety experts, including James 
Dougherty as chief safety officer.
    The Safety Department is investing in new systems and 
processes to streamline their investigations, resolve open 
corrective actions, and improve their auditing capacity. A good 
example of this new approach is the recent completion of 
WMATA's roadway worker protection [RWP] Manual, which 
leadership recently signed into effect. By bringing together 
safety, operations, labor, and management employees, as well as 
soliciting input from outside agencies and experts, WMATA has 
created a comprehensive document that will improve safety on 
the tracks.
    WMATA also recently revised their rule book, complying with 
longstanding TOC and NTSB recommendations, and acknowledged the 
need to develop a non-punitive safety reporting system, 
although this essential step remains a work in progress.
    Yet, despite advances, WMATA's organizational culture must 
become willing to show their work. A recent example came July 
4th weekend, when WMATA removed all 4000 series rail cars after 
technicians discovered a potential fault that could allow train 
doors to open during movement. There is no question that 
WMATA's immediate response was the safest course of action, but 
our attempts to learn more were delayed.
    On July 6th we asked for more information about this 
decision and for any procedure for the door repairs, and 
received conflicting answers. Twenty days later we received a 
copy of the full procedure, learning it had been in effect 
since 3 days after our original request. Our request for 
information about the reasoning behind this decision took even 
longer.
    Our difficulty in obtaining information during the process 
just demonstrates that our need for timely and accurate 
information must become a high priority.
    WMATA faces real challenges to the goal of becoming 
America's rail transit safety leader; however, they can promote 
transparency, empower the safety department, hold managers 
accountable for safety goals, and improve hazard communication, 
as has begun. It will grow safer, smarter, and stronger as an 
agency.
    Continued engagement on the part of the Congress, the FTA, 
the NTSB, and the riding public, as well as the TOC in our 
State safety oversight role, will be crucial to their success 
in sustaining their progress.
    Thank you for your time. I look forward to answering any 
questions you may have.
    [The prepared statement of Mr. Bassett follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Norton. Thank you, Mr. Bassett.
    Mr. Garland.

                STATEMENT OF ANTHONY W. GARLAND

    Mr. Garland. Good afternoon, Congresswoman Norton, members 
of the committee, and others. Thank you, Congresswoman Norton, 
for inviting ATU Local 689, the largest transit workers' union 
in the Nation's Capital, and the third largest transit union in 
the Nation, to testify before you.
    I am here today to speak on behalf of the Union's 
president, Jackie Jeter, and our members. Over the past several 
years, we have made several recommendations to WMATA that we 
expect will improve management, employees' preparedness, 
riders' and workers' safety, and the safety of the public.
    Please allow me to explain some of the most important. We 
believe that these are consistent with the proposed Federal 
leg.
    One, development of comprehensive safety plans that mirror 
the proposed national plan. The WMATA plan should result from a 
collaborative effort between WMATA and the Union and require 
all parties to adhere to it.
    Two, Union representatives should be members of the WMATA 
Board of Directors and the Safety Inspection Team.
    Three, retraining plans must be developed and implemented 
for the entire work force, and likewise certification and 
recertification of safety personnel should become routine and 
ongoing throughout the workers' career.
    Four, equipment upgrades must meet safety performance 
criteria and conform to minimum safety performance standards 
consistent with national standards or set at a higher level by 
our jurisdictions, then those standards should be maintained.
    Five, deferred maintenance must be given priority in a 
timely set for completion.
    Six, specific items, replacement parts or new mechanisms, 
new procedures within the systems, must be addressed within a 
specified timeframe, then tested and evaluated immediately. 
Adjustments and revisions must be completed within a specified 
period, and retest completed prior to any implementation.
    Seven, the result of any equipment or process failure 
should be made public promptly, and the report should be 
disseminated to affected divisions and personnel within the 
WMATA and the Union work force.
    Eight, we support the inclusion of oversight from external 
entities with enforcement powers.
    Nine, we believe that noncompliance should be sanctioned 
and that improvements should be funded by the Federal 
Government and the three jurisdictions provided mass transit 
for the Washington Metropolitan Area Transit Authority going 
forward, with greater emphasis placed on awareness, disbursal 
of information, and willingness to work collaboratively with 
the Union on behalf of its employees.
    Thank you for your time and attention this afternoon. I 
look forward to answering any of your questions.
    [The prepared statement of Mr. Garland follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Norton. Thank you, Mr. Garland.
    Mr. DeBernardo.

                STATEMENT OF FRANCIS DEBERNARDO

    Mr. DeBernardo. Good afternoon, Chairman Norton. Thank you 
for inviting me to testify today. My name is Francis 
DeBernardo, and I serve as the 2010 Chair of the WMATA Riders' 
Advisory Council.
    The Riders' Advisory Council serves as the riders' voice 
within Metro. The Council provides feedback to the Board and 
customer input to Metro staff. Members use Metro's transit 
services, Metro bus, Metro rail, and Metro access, and 
represent a diverse mix of ages, backgrounds, and ways in which 
they use the system.
    Your invitation letter noted that this hearing would focus 
on the NTSB's railroad accident report on the June 22, 2009, 
Metro rail collision and the shortcomings in Metro's internal 
communications and its ineffective safety culture. Since the 
Riders' Advisory Council is specifically composed of non-Metro 
employees, it will be difficult for me to comment on Metro's 
internal workings. Instead, I would like to focus my testimony 
today on how Metro's communications with its external 
stakeholders, namely its riders, affect safety and how, as it 
rebuilds its safety culture, Metro must include riders in that 
effort.
    As the NTSB's report noted, several factors, human and 
mechanical, contributed to the 2009 collision. The Council is 
confident that, under the leadership of the interim general 
manager, Mr. Sarles, Metro has been identifying and addressing 
the mechanical factors that contributed to last year's 
collision. However, in addressing safety, Metro cannot only 
look inward for solutions. It must also look to its 1.2 million 
daily customers about how to address safety.
    In the wake of last year's crash, the focus has been on the 
safety of the train control system and the safety of employees 
working within Metro's right-of-way. I would also suggest that 
other aspects of the rider experience are critical to create a 
safe Metro system.
    Working to reduce crowding and improving service 
reliability, along with ensuring clear and direct timely 
communications with riders will all greatly improve safety. 
Crowded platforms, crumbling tiles, and broken elevators and 
escalators pose threats to customer safety that, while not as 
dramatic as last year's crash, are just as dangerous because of 
their ubiquity.
    We are encouraged that Metro is taking steps to improve 
communications with riders in terms of safety and security. 
Earlier this month Metro unveiled signage that preeminently 
featured the telephone number for the Metro Transit Police to 
help riders report problems or safety concerns. This example of 
a rider-suggested change will directly improve safety for 
Metro's customers.
    As it rebuilds its safety culture, Metro also needs to 
rebuild its culture of customer service. Employees, especially 
those actively engaged with customers, will be better able to 
recognize and correct potentially dangerous situations earlier.
    In addition, an organization that listens to customers, 
addresses their concerns, makes it more likely that those 
customers will identify and report safety concerns.
    Metro's 1.2 million daily riders represent 1.2 million 
pairs of eyes and ears on the system every day. This is a 
resource that cannot be taken for granted if Metro truly wants 
to become safer.
    The Council is also encouraged by Metro's recent efforts in 
tracking and reporting service and safety. The new monthly 
vital signs report provides a clear, timely snapshot of Metro's 
performance. Metro must make this available to all its 
stakeholders if they want to improve performance.
    Ensuring sufficient capital funding for Metro is necessary 
to improve safety. The Council appreciates Congress' support of 
the $150 million annual Federal capital funding and hopes 
Congress will continue to provide these funds, especially as 
they will be directed toward safety.
    We are also encouraged by the Metro Board's approving a $5 
billion, 6-year capital funding agreement.
    I thank you for this opportunity to provide testimony and 
will be happy to answer any questions that you may have.
    [The prepared statement of Mr. DeBernardo follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Norton. Thank you very much, Mr. DeBernardo.
    Could I ask a question of the entire panel? Since the June 
22, 2009, tragedy, in your view is Metro safer than it was? I 
am not asking for absolutes here, but is it safer than it was? 
And I would like you to describe briefly, if you think it is 
safer, why; and if you think it is not safer, why.
    Ms. Hersman.
    Ms. Hersman. Yes, ma'am. I think clearly Metro is in a much 
safer position today than it was in June 2009. The reason I 
would say that is because I think they are aware of many of the 
deficiencies that exist on the system, whether it is track 
circuits or challenges that they have within their operation, 
communication, making sure that maintenance procedures are 
clear. They have done a lot of learning in the last year-plus, 
and I think that always every organization is going to go 
through a difficult time after an accident.
    The question is how you react to that accident and what 
changes you make, and I believe that the Metro Board was very 
willing to listen to the Safety Board after our report was 
concluded, and they have taken many of those lessons to heart, 
and I think that they are beginning to make many improvements 
that have been long overdue.
    Ms. Norton. Thank you, Ms. Hersman.
    Ms. Hudgins.
    Ms. Hudgins. Ms Norton, yes, I believe that we are, as an 
Agency as well as our Board, a safer environment for our 
customers. I think we most specifically have to talk about the 
fact that immediately after the accident that there has been a 
constant attention to the testing that needs to be done for the 
trains to ensure that the accident should not happen again.
    But, more importantly, I think the Board has been focused. 
As I noted in my opening point, we have already changed our 
committee so that we can make sure that safety and security are 
foremost in the work that we are looking at, and that we can 
get the kind of information that was brought out in the NTSB 
report that we need to hear, as well as the whistleblower piece 
that allows our workers to be willing to report information 
freely without punishment.
    I think those are very important pieces to start us on what 
I think is rebuilding the culture that is needed for safety in 
our organization, throughout the Board, and with our customers.
    Ms. Norton. Mr. Sarles.
    Mr. Sarles. I believe we are a safer organization, but we 
have a long way to go. Some of the things that have been done 
include, with regard to the specific incident, monitoring our 
system much better than we did. We have started more training. 
We have improved communication. We have taken some actions such 
as ordering new cars.
    One of the important actions, which I mentioned in my 
testimony, was the appointment of a chief safety officer with 
much experience and bringing other people into this 
organization that have many, many years of experience in rail 
operations and safety, and that person reports directly to me 
and has a lot more independence and strength than occurred in 
the past in this organization.
    Those are some of the things, but I emphasize it is a 
start; it is not an end.
    Mr. Bassett. Speaking on behalf of the oversight agency, I 
would believe that yes, they have made significant progress. 
They are a safer organization than they were on June 21st.
    I think it is worth noting that the Metro is unequivocally 
the safest way to get around the national capital region and 
has been for a very long time, but I think they have made 
notable progress, in particular in the areas of switching their 
focus from what I would characterize as occupational safety, 
where they were primarily concerned with number such as slips, 
trips, and falls, workers compensation injuries which, while 
important, do not reflect an approach to analyzing systemic, 
high-consequence threats to the system such as June 22nd.
    The addition of the expertise that Mr. Sarles mentioned has 
really permitted them to bring their safety office up to a very 
high level of technical proficiency in the matters, in 
particular with rail safety, that will help them analyze such 
hazards in the future and prevent them before they ever pose a 
risk to passengers.
    Ms. Norton. Thank you, Mr. Bassett.
    Mr. Garland.
    Mr. Garland. I would have to answer that two-fold. I think 
in a worker's capacity, which is what I was hired as a bus 
operator, the Agency is safer because of the awareness that the 
system gets in the media or incidents that happen on a daily 
basis. But I would say that, as far as the workers are 
concerned, the ones who do the work, there is this element of 
the workers not being confident in the Agency as far as being 
able to protect their safety and their health.
    The underlying issue is, when they are doing their daily 
operations in the system, there is that element of always 
looking over your shoulder as to what else is out there. So in 
that sense you are working under pressure as a worker.
    I know the train system is in a manual mode and the train 
operators basically run the system through the manual mode, but 
there is that element out there, what's out there? That is a 
safety issue.
    So until we address the work force and reconnect with the 
work force as to training, as to recertifying, building the 
morale of the work force and reconnecting with the work force, 
that element is always going to be there.
    We always talk about the funding of the system, but there 
is that element of the human beings who do the work, and until 
that is addressed the money portion really is like opening a 
window and pouring it out of the window. If you have 
complacency with your work force, you must get reconnected with 
the work force and re-instill in them what they are doing on a 
daily basis. So I would say it is unsafe in that sense.
    Ms. Norton. Thank you, Mr. Garland.
    Mr. DeBernardo.
    Mr. DeBernardo. Yes, the Riders' Advisory Council believes 
that the Agency is safer in practice, in policy, and, most 
importantly, because of their willingness to be accountable and 
transparent.
    Ms. Norton. Metro is faced with a very difficult issue. in 
testimony from one of you, or perhaps this is just what I 
remember, there is something like $11 billion in funds that are 
needed in your capital program.
    Now, the Congress has authorized only $1\1/2\ billion over 
10 years, and, as I understand it, the region would put in 
another $1\1/2\ billion. So let me begin at the micro level. 
You now have from the region $600 million last year and $600 
million, we believe, this year.
    How should that money be spent? Anyone can answer that who 
feels that they can, but we would like an answer to that 
because somebody has to figure out, given the enormity of the 
need, I almost assure you are faced with a deficit in a 
recession, not much hope that the Congress would pony up more 
money. We are aware of your own difficulties, certainly not of 
your making but there they are, and so you are not going to get 
more from the rider public than you are already getting. Mr. 
DeBernardo will probably be the first to tell you.
    So in a climate of extreme scarcity and great need, 
somebody has to figure out where these scarce resources go. Is 
anybody figuring it out? One way to do so, since you have money 
in hand, is to say where is that money going to go.
    Ms. Hudgins. Congresswoman Norton, I think when we look at 
our approved capital budget and we look out over the 6-years 
that we have, we have tried to focus those resources in many of 
the areas that were raised by the NTSB.
    If you recall, over 6 years ago the Metro Board developed a 
Metro matters, and it was funded really from the jurisdictions, 
the Metro Compact members. What we are acknowledging is that 
$1\1/2\ billion over the 10-years is, indeed, a very important 
piece of what we are doing.
    We just have to admit that it is still not enough, and it 
is uncomfortable to say that when we recognize how much we need 
to do.
    Ms. Norton. Yes, and we don't want to hear that because we 
don't want to raise hopes here, so we need to know how you are 
going to spend that money. Have you budgeted the first 2 years 
of money or the first year of money? Have you spent the first 
year of money?
    Ms. Hudgins. We have budgeted, and Mr. Sarles can go over 
the estimates that are part of the NTSB recommendations that I 
think are very critical in addressing this problem.
    Ms. Norton. We recognize that you are dealing not only with 
funds from Congress.
    Ms. Hudgins. Yes.
    Ms. Norton. I am asking about our funds. The appropriators 
will want to know, for example, as we struggle--and it is a 
struggle each year to get each $150 million out. Well, they are 
going to ask for an accounting on their funds as if their funds 
were the only funds in the whole world, when, as your own needs 
indicate, they are a fairly small part of the funds you receive 
and need.
    Mr. Sarles, if the appropriator were here he would say: how 
did you use the first $300 million and how will you use the 
$300 million for this year?
    Mr. Sarles. All of it is devoted to safety and state of 
good repair projects. An example of where a good chunk of money 
is going is to purchase the cars to replace the 1000-series 
cars, which is our top priority and, of course, an NTSB 
recommendation of longstanding time period. So that is where it 
is going, safety, state of good repair. In fact, if you look at 
our entire 6-year, $5 billion capital program, it is all 
devoted to safety and state of good repair.
    Now, we do have the NTSB recommendations. I outlined before 
that we are going to move ahead on all of them. We know already 
that there is roughly $150 million that wasn't accounted for in 
our budget, because obviously we didn't know exactly what the 
recommendations were. We are going to have to deal with that 
and reprogram because we are going to do it.
    Ms. Norton. I'm sorry. What was not accounted for in your 
budget?
    Mr. Sarles. About $150 million that will have to be spent 
as a result of the NTSB recommendations.
    Ms. Norton. Above and beyond?
    Mr. Sarles. What we had budgeted.
    Ms. Norton. For this year? For which years?
    Mr. Sarles. Over the next 3 years or so. The entire program 
is 6 years, but it is really things that we want to accomplish 
in the next 2 or 3 years.
    So we are going to have to look at reprogramming that, and 
then obviously if there are other funds that come available, 
that would be very helpful.
    Beyond that, there are certain recommendations that we are 
following through on, such as the systems safety testing and 
analysis that, as a result of that, we may have other 
conclusions that come out and other findings that say we have 
to spend additional money, but that we will not yet be able to 
determine until we have completed those analyses.
    Ms. Norton. Ms. Hersman, your report is truly excellent and 
it is the kind of road map that I believe will probably be used 
by other systems, as well, particularly since you cautioned 
other systems early on, and we certainly thank you for your 
early discovery and your announcement that other systems which 
had similar tracking systems need be very cautious. That is 
very important national announcement that you made.
    What it, of course, indicates to the subcommittee is that 
you have the kind of knowledge of these systems around the 
country that none of the rest of us, including, I am sure, many 
at Metro, have. I would like to know, you have to forgive me, I 
still am a professor at Georgetown and always mark on a curve, 
so I don't want to compare my own students to the perfect. I 
look across the board and I say, compared to what? It is the 
only fair way to judge, even though we want people to reach 
beyond where the best are.
    I would like to ask you today, with the improvements that 
have been made as of now, how Metro would rank compared to the 
systems that we are most familiar with, like Chicago, New York, 
Boston, the kinds of systems. How would you rank our Metro 
system today, given improvements that they have made, 
consciousness they have, with these systems far older and 
apparently haven't had the same issues?
    Ms. Hersman. You are kind of asking me to pick amongst my 
children a little bit. Certainly Metro is a system that I and 
many of our employees use every day to get to work, and so it 
is one that we are very familiar with. But I will say we 
investigate accidents in transit properties all across the 
country, and so we do find failures and lapses. We find 
deteriorating equipment and challenges in those systems.
    It is very simple things sometimes, like distractions, like 
a train operator that might be texting while they are operating 
a train and they hit another train. Those are not always things 
that cost a lot of money or have anything to do with the age of 
the system, but they involve the human beings that are 
involved, so it is having good procedures and good systems.
    I will say that there are many other transit properties 
that are learning a lot from this investigation on Metro.
    Ms. Norton. Ms. Hersman, would you make us understand. 
Perhaps we just don't know. This was so dramatic and 
inflammatory. Why haven't we had such crashes in New York and 
in Boston? Is it because they have a safety culture that we do 
not have?
    Ms. Hersman. I think it is hard to say, but they have not 
had certainly the overall number of accidents that Metro has 
had. Certainly the June accident in 2009 was very spectacular, 
but Metro had three other events after that.
    Ms. Norton. Your report noted and we are talking about one 
spectacular event, but how many events did you note over the 
year?
    Ms. Hersman. Well, over the year since the accident there 
were four incidents that were investigated.
    Ms. Norton. Even since the accident?
    Ms. Hersman. Yes.
    Ms. Norton. Even since the accident?
    Ms. Hersman. Three additional that we investigated on Metro 
property.
    Ms. Norton. And before the accident there were about how 
many?
    Ms. Hersman. We investigated two track worker fatality 
events, one on the yellow line, one on the red line. We also 
had the Woodley Park accident where we had the train roll back. 
Fortunately, there were no fatalities on that. But the number 
of accidents that Metro has had is unusual compared to the 
other properties around the country.
    Ms. Norton. Are you satisfied with what you know that Metro 
is spending the first of its funds in the right places?
    Ms. Hersman. I think it is really up to Metro to prioritize 
what they are ready to roll out.
    Ms. Norton. In terms of safety?
    Ms. Hersman. Yes, in terms of safety. I think Mr. Sarles 
and his team are in the best position to know what projects are 
ready to go and what things are ready to roll out.
    One of the things that doesn't cost any money, and that is 
what the Metro Board is moving forward with, is beginning to 
change that safety culture from the top down, and I think this 
goes to Mr. Garland's comments. You have to involve the whole 
organization in this process. You have to bring the employees 
to the table for this to be effective.
    Those are things that may not be very expensive, but they 
are going to take a lot of work. I really did appreciate what 
Mr. Sarles said, that they have a lot of work yet to do, and I 
think that is exactly the right attitude.
    Ms. Norton. Mr. Sarles, how will the workers be involved, 
more involved with Metro, not as adversaries, apparently there 
has been some adversarial feeling. Mr. Garland says that there 
should be a member of the Board. Is there any system that you 
know where workers are represented on the Board, not on the 
Board? How would you make sure that workers have a buy-in into 
the system?
    Mr. Sarles. I think there are a number of things that can 
be done and, in fact, we have started on a number of them.
    One is what we call safety conversations, where we are 
strongly encouraging workers among themselves, as well as 
between supervisors and workers, to talk about safety issues 
when they arise.
    I will give you a for instance of what that is. I was out 
one night looking at construction work and I happened to step 
over some tools, and one of the folks came up to me and said, 
You shouldn't have done that because you could have stepped on 
the shovel and smacked yourself in the face. That is a safety 
conversation. It is that kind of thing that we have to 
encourage.
    In addition, at our facilities there are meetings that go 
on between the supervisors and the workers, there are safety 
committees that discuss what issues are coming up. Now, it is 
important not just to have the conversations and talk about 
what the issues are, but then to act on those issues and to 
give that kind of feedback to the workers. That is the 
direction we are moving in. I wouldn't say it happens all the 
time every place the way it should, but that is the direction 
we are moving in.
    We have established superintendent report-out committees, 
where I go and listen once a month to what the issues are, and 
this reflects the conversations that are going on in the safety 
committees as to where the trends are, where there are issues, 
and where there are successes.
    I think importantly, which I have some experience with at 
my last job at New Jersey Transit, we were the first commuter 
railroad to introduce the non-punitive reporting system. We did 
that last year and we signed up that agreement with----
    Ms. Norton. Who did that? I am sorry.
    Mr. Sarles. New Jersey Transit. First commuter railroad in 
the United States to do that. We have discussed that we the 
leadership at ATU Local 689. In fact, I shared with them that 
agreement, and that is the kind of thing I would like to see 
happen, myself.
    Ms. Norton. This is what I would like to get to the bottom 
of. We don't think that there is a non-punitive culture at 
Metro now, and the words are thrown around, and I am not sure 
what they meant. In fact, the only understanding I have is what 
you, Ms. Hersman, indicated. The way she gave me to understand 
it was not simply talking in generalities about culture, but by 
describing other forms of transportation.
    I wish, Ms. Hersman, for the record you would tell us about 
non-punitive systems in other modes of transportation. I do not 
think the public understands it any more than I did before I 
heard what I regarded as a very clear statement from you. I 
have not heard any here today. It would elucidate our record to 
know by way of example what a non-punitive culture is by 
reference to other forms of transportation that have such 
systems in place. How do they operate?
    Ms. Hersman. Thank you for that question. I would be happy 
to explain because we think that they have been very successful 
in other modes of transportation. The Close Call Reporting 
System is being used in the rail industry, in the freight rail 
industry. Certainly Mr. Sarles has some experience with a 
commuter rail industry.
    Ms. Norton. Now, close call would mean, for example, if I 
am Mr. Garland and I had a close call, and who knows it is Mr. 
Garland and maybe the other driver, they would just come 
forward and say, I had a close call?
    Ms. Hersman. Absolutely. Well, you need to set up a 
structure where the employees feel comfortable reporting this. 
I can give you a couple of examples in the aviation industry 
because we also have a very mature non-punitive reporting 
system for pilots. We have one in existence also for air 
traffic controllers. But when we talk about pilots, the 
important thing is sometimes there are things that go on that 
no one else might know besides the people who are in that 
cockpit. Sometimes there are things that other people know 
about. But what you need is you need more information really to 
understand what happened and why it happened.
    So it is not about letting people off. It is not about 
avoiding discipline. But it is really about the organization 
being able to learn about mistakes or failures or systemic 
procedures that don't work or aren't being applied.
    So we can look at two aviation accidents and look at how 
they might have been treated differently based on the 
circumstances. One involves two pilots who overflew their 
destination, Northwest 188. These are real events. Last October 
they overflew Minneapolis by about 100 miles. They did not 
respond to air traffic control hails for over an hour and they 
didn't realize that they had overflown until they got a call 
from the flight attendant saying, Should we begin preparing the 
cabin, and they realized we have overflown.
    They had taken their laptops out and they were talking 
about new scheduling procedures and they had gotten distracted 
from the task at hand.
    Around the same time, we had another airplane coming in 
from South America on an overnight flight. They had a senior 
pilot, a third pilot in the cockpit with them who got ill, had 
to leave the cockpit. They were coming down to land in Atlanta 
Hartsfield about 6 a.m. They had been flying all night. They 
got a change of assignment and runway, some information as they 
were coming in. They landed on a taxiway at Atlanta Hartsfield 
Airport, our Nation's busiest airport, not on the runway but on 
a taxiway. They were very fortunate that they didn't have a 
major accident.
    Those pilots, they made a mistake. They did not want to 
land on that taxiway. What was really important about that 
event is that we learned about why. Was the lighting good on 
the runway, on the taxiway? What were their instructions? Were 
they unclear? How did they line up?
    Ms. Norton. But what about the first one? As I recall, the 
first pilots were not candid about having their laptops out.
    Ms. Hersman. They actually were. They were forthcoming with 
the Safety Board investigators, but they did end up getting 
their licenses suspended by the FAA.
    Ms. Norton. Yes. That is pretty severe.
    Ms. Hersman. That was because they knowingly violated 
procedures. They had a prohibition in the flight deck by the 
company, You can't do this. So this would be like a bus driver 
texting and hitting someone. That is a violation of procedures, 
a knowing violation. You don't want to protect people who are 
violating rules.
    But on the other situation with the pilots coming in to 
Atlanta, you want to understand why that happened because they 
didn't mean to get in that situation. That report was accepted 
into the system. They talked to the pilots, they counseled 
them, they learned from that event.
    So we say, how does this apply to a transit system? How 
would this work in a transit environment? I visited some other 
operators around the country, and I asked a system in another 
city how would you use this system or how have you used this 
system, and they said, we had a problem. We had some escalators 
that we had an issue with, and one of them slipped and someone 
got hurt, and we said, wow, this has never happened to us 
before. And a bunch of their maintenance technicians said, yes, 
it actually has. It happens a lot. We see it happen all the 
time. And the management team said, what do you mean you have 
seen it all the time? And the employee said, ``well, we have 
this form for reporting if we get hurt, we have this form if we 
are reporting if a passenger gets hurt,'' but they didn't 
really know how to put that information up the chain that an 
escalator had slipped but nothing bad had happened. So the 
operator said, ``wow, we really need to be able to get this 
information. We need to be able to pull this information in 
before something bad happens.''
    That is exactly the kind of system that they need to have 
on Metro, so if they have an escalator that is slipping at 
Woodley Park they need to get employees who are calling up 
Management and saying, we are having this problem and you need 
to help us figure out how to address it. Let's sit down and 
talk about this.
    Ms. Norton. Instead of feeling that the escalator slipped 
and the first thing you are going to be asked is who did it.
    Ms. Hersman. Well, and we actually saw that in our 
investigation of the Metro accident. What we saw is that there 
was a sense that there was a punitive culture if mistakes were 
made.
    We talked to the train operator of the standing train, the 
one that was struck, and he shared with us the reason why he 
was operating in manual mode. He should have been in automatic 
mode, but the reason why he was operating in manual mode is 
because in the past he had been operating in automatic mode and 
the train overran the place where it was supposed to go in the 
station and he was disciplined for it when the train was 
running in automatic. That made him not trust the system, not 
trust the train, and he wanted to be in control and make sure 
that it didn't overrun so he wouldn't get into trouble.
    Ms. Norton. That is a direct example.
    Ms. Hersman. He was violating procedures because he was 
concerned about the discipline.
    Ms. Norton. Yes.
    Ms. Hersman. Rather than the company understanding we have 
a problem with these overruns and we need to fix it.
    Ms. Norton. That certainly helped to cause the accident if 
he was in manual mode.
    Ms. Hersman. Well, it didn't necessarily cause the 
accident. He happened to be stopped on that track circuit that 
didn't detect him.
    Ms. Norton. Yes.
    Ms. Hersman. That was what caused the accident.
    Ms. Norton. Yes.
    Ms. Hersman. But it was a symptom of not addressing 
problems and employees feeling uncomfortable talking about 
them.
    Ms. Norton. Mr. Sarles, did you look at what other modes of 
transportation have done? You say you were the first system to 
have----
    Mr. Sarles. First commuter rail system to have close call 
where we----
    Ms. Norton. Right.
    Mr. Sarles. This involved an agreement between the 
operating unions, the FRA, and ourselves that people could 
identify and report something that could be a hazard or could 
lead to an accident in the future but hadn't occurred in that 
particular incident, and by doing it in a way that protected 
the employees so that the information was provided without them 
being subject to any retaliation. It is way to get that 
information out that the Chair of the NTSB just pointed out, 
and it is the way we should go, and that is the way I would 
like to go.
    Ms. Norton. Have you initiated such discussions with the 
transit union here?
    Mr. Sarles. Yes, we have. We meet monthly, and that is one 
of the things we are talking about.
    Ms. Norton. Ms. Hudgins, I am interested in you and Mr. 
Sarles that you have looked outside of the Agency. Any time, I 
think that is always among the best practices, to assume that 
there may be others who can be helpful.
    I believe in your testimony you describe an external safety 
panel that Metro has formed. I must say I was impressed with 
the composition. You formed it with help from the DOT, and I 
hope Metro will recognize that DOT is right here with lots of 
expertise that can be useful to Metro, but they apparently 
helped Metro form this panel, and it has an impressive, across-
the-board membership--AFL-CIO, American Public Transportation 
Association--to develop strategies for creating this safety 
culture.
    Can you give us some information about what this panel is, 
how this panel is advising you, and whether they have, in fact, 
been able to move you toward a safety culture? And if so, when?
    Ms. Hudgins. Ms. Norton, the panel is working now and has 
been working with our Metro staff and working in looking at our 
organization, and they are to come back to our Board.
    Ms. Norton. When are they due back?
    Ms. Hudgins. I am not sure I have the final date back, but 
by the end of the year we need to have that back, because there 
are two aspects of this. We really were looking for outside 
help in order to evaluate what we should set as the standard 
for our organization, and that starts with the general manager, 
and looking at a general manager for the future we want to make 
sure that this Board understands----
    Ms. Norton. Where are you on the general manager of the 
future?
    Ms. Hudgins. The general manager?
    Ms. Norton. And when is the future coming?
    Ms. Hudgins. Well, let me first say that we have a general 
manager in place, and Mr. Sarles has been outstanding in the 
work that he has done, but he has indicated he is not a 
permanent candidate for this job so we are working toward the 
end of the year of moving forward on a general manager.
    Ms. Norton. So you believe that by January 1st we will have 
a new general manager for the Metro system?
    Ms. Hudgins. We hope that within that timeframe we are able 
to do so. But the information that we are gathering is very 
critical in trying to set some priorities for the organization 
about safety, and that is what that group is doing in helping 
the Authority and the general manager and his employees, but we 
are looking for expertise. We are looking for information from 
this task force that will set forth some guidelines for us.
    Ms. Norton. I believe Mr. Sarles' testimony, or it comes 
from really the audit of March 2010 when 25 percent of the 
positions in Metro's safety department were vacant, and you 
have testified about James Dougherty, the new chief safety 
officer, and an actual increase of 12 positions. So we would 
like to know how many positions remain vacant?
    Mr. Sarles. None.
    Ms. Norton. And how has that new safety operation been 
restructured? In what way is it different?
    Mr. Sarles. There are no vacancies left. All those vacant 
positions that were talked about were filled, including people 
who have worked on other railroads and have extensive 
experience in the regulated environment.
    In addition, as part of the FTA findings and 
recommendations, we were to do a self-assessment of the safety 
organization. What we have completed thus far is looking at the 
experience of all the people in the organization, what we need 
in that organization, and the additional training that has to 
be done so that everyone is fully qualified in all their 
positions. There has been a lot of experience; now we are just 
adjusting it to the Washington Metro organization.
    Importantly, as I mentioned before, that organization, 
which had sort of moved around, safety organization had moved 
around different places in the organization, not always 
reporting to the general manager, reports directly to the 
general manager, as well as giving monthly reports to the 
Board.
    Ms. Norton. Mr. Bassett, I appreciate the work that you 
have done, particularly given the obvious handicaps under which 
you labor. How many funded positions does TOC have?
    Mr. Bassett. We currently have two members who are assigned 
full time, myself and Mr. Benton. The White Paper, as issued in 
April, identifies the commitment from the three jurisdictions 
to allocate one full-time person, as well as one person who 
will provide 50 percent of a full-time equivalent, per 
jurisdiction. So once the hiring process is complete for the 
District of Columbia, we will have three full-time TOC members.
    Ms. Norton. Now, Mr. Bassett, you are having to struggle 
while we in the Congress are trying to create an entirely new 
system where the local jurisdictions would have to have a fully 
funded oversight organization or depend upon the Federal 
Government, and we are giving that option in our legislation, 
at least, to the local jurisdictions. You can do it yourself, 
according to regulations which will be at some level national, 
or the Federal Government can help the local jurisdictions. 
That is just very rough notion of the statute.
    You are going to have to hobble along until we get this 
bill out. Actually, I think it is today it is on the floor, or 
tomorrow it is on the floor. I am going to go to speak to that 
bill. We hope to get the bill out of the Senate.
    So we are very concerned about the issues you have had. Why 
did they have issues, after there have been hearings that Mr. 
Basset reported, Mr. Sarles?
    Mr. Sarles. I think, as Mr. Bassett said, there has been a 
lot of improvement. As I said, we are just at the start.
    The one issue that Mr. Bassett brought up with regard to 
the 4000-series cars, there are two pieces to it.
    Ms. Norton. This was the 4000-series cars that were all 
taken off line?
    Mr. Sarles. Right.
    Ms. Norton. Which would lead any oversight body to want to 
know why, and they got two or three different answers, and we 
are left to believe that there were not real written 
procedures, correct me if I am wrong, because the document you 
got was dated 3 days ahead of when you got it, or some such. It 
indicates they kept getting answers one way or the other, which 
tended to show that the procedures within Metro themselves were 
in disarray, and only because Mr. Bassett asked for a really 
common-sense explanation did it become clear that the problem 
was not so much just tell us what the answer is; it was that 
the procedures of Metro did not provide for staff to do the 
appropriate documentation in order to render an answer to Mr. 
Bassett or anybody else, so they had to quickly get themselves 
together and get an answer to Mr. Bassett.
    Mr. Sarles. Let me clarify something. Immediately upon the 
determination that there was a problem the TOC was notified. 
Immediately, they were invited in to see what the problem was 
and to show what the solution was in the field, invited to the 
shops, I believe, and reviewed it and did not see an issue with 
what we were doing.
    Where we could have done a better job is that once we 
determined what the fix was and how to do it, which we shared 
with the TOC, in terms of documenting that. In other words, you 
decide how you are going to fix it, and then you have to write 
down how you are going to fix it, as we were proceeding with 
the repairs.
    So the focus of our folks was on identifying it, 
identifying the corrective action, getting the corrective 
action moving so we get the cars back in service. What took 
more time than it should have and could have been more clearly 
communicated was documenting what had been done and what we 
were doing.
    So we recognize that and we will take steps to improve upon 
that.
    Mr. Bassett. I think Mr. Sarles has accurately outlined the 
sequence of events. Our concern was never that they did the 
wrong thing or that their procedures for actually correcting 
the problem were inadequate.
    Ms. Norton. So they acted quickly. When that door didn't 
open, they knew to take those cars out?
    Mr. Bassett. Actually, I believe the concern was the door 
was opening when it shouldn't have.
    Ms. Norton. Yes. Just the opposite.
    Mr. Bassett. But the important thing to note is that, as 
Mr. Sarles mentioned, they were on the phone with us at nine 
o'clock on a Friday night on a holiday weekend. They were 
bringing our contract engineer in in the immediate response, 
and that went very well.
    The issue was the followup.
    Ms. Norton. Well, that is a vast improvement if the first 
thing you do is to notify TOC.
    Mr. Bassett. Yes. And I unfortunately was pressed for time 
putting together oral testimony, trying to get a whole bunch of 
stuff into 5 minutes, but I believe the written testimony 
reflects that their immediate reaction of notifying us and 
bringing our personnel in was praiseworthy. But the concern is 
the followup.
    Ms. Norton. Mr. Bassett, I really have to ask you about our 
concern. We don't know when this bill will get out. Let's 
assume our bill gets out of the House and the Senate. It will 
take considerable time for regulations to be drawn and the 
rest.
    The subcommittee was very concerned the way TOC is funded. 
Bad enough for it not to be independent in the usual sense of 
the word, but are you not funded through the transportation 
departments of the various jurisdictions?
    Mr. Bassett. We are, and in the White Paper they made the 
commitment to almost double the funding from the three 
jurisdictions on an annual basis.
    Ms. Norton. What was mystifying to us was, since all the 
money comes from the legislatures in the first place, why use 
the transportation departments, who could be implicated, who 
knows, in issues TOC finds? Why use them as a pass-through if 
the point is not to in some ways control TOC? Why not at least 
make TOC independent enough so that its funds come directly 
from the legislature or the county legislature, or in the 
District it would be the City Council? They could appropriate 
it in their funds. We don't understand why you give the money 
to DOT and say, will you give it, because we see that third 
party intermediary as either unnecessary or if not actually 
having a role. So we would like to know is it?
    Mr. Bassett. The membership of the TOC, as well as the 
funding, does come from the three State jurisdiction level 
transportation.
    Ms. Norton. We are well aware of that. Yes.
    Mr. Bassett. And I think the only real additional comment I 
can share on that is that this was an approach that was 
approved by the Federal Transit Administration and, in terms of 
having State level agencies doing the State safety oversight 
for a major rail transit system, it is fairly common to use 
this approach nationally.
    Ms. Norton. Well, what role does the Department of 
Transportation of the various agencies play other than pass 
through? Do they consult you? Do they advise you? Is their 
expertise necessary?
    Mr. Bassett. They are our employers. We are part of the 
team. I think probably the most noteworthy thing, especially 
recently, is that with the creation of the TOC Executive 
Committee, thanks to the leadership of the two Governors and 
the mayor, we now have access on a regular basis to the 
secretaries of transportation for Maryland and Virginia and to 
the director of transportation for the District of Columbia.
    So our being a part of these transportation agencies has, 
especially since the White Paper, permitted us access to senior 
transportation leaders who previously might not have been 
available to us as quickly.
    Ms. Norton. So you don't perceive any interference from 
them with respect to your independence or duties?
    Mr. Bassett. They are an integral part of our leadership, 
and I would say their role is to help us perform our duties.
    Ms. Norton. They give you advice and counsel and technical 
expertise and the like? Is that what they do?
    Mr. Bassett. We have access to those things from both our 
leaders and other personnel within our agencies. So yes.
    Ms. Norton. Mr. Garland, we have heard testimony here 
without much detail about the new whistleblower protection 
policy. The Federal Government has an awful record on 
protecting whistleblowers except it might not be as vital if 
you are a functionary in the Department of Education, but if 
you are a common carrier, it would seem to me that 
whistleblower protection would be of the highest order, which 
would mean that the worker could blow the whistle on issues 
without facing punitive measures.
    Have you any view on the new whistleblower protection 
policy and the so-called safety hotline, I think that is the 
name that was used, that has been initiated?
    Mr. Garland. I am familiar with the Safety Hotline. The 
Safety Hotline has always been there for the employees to 
report safety issues and things of that sort. I think what we 
are dealing with is a culture of workers that, over the years, 
were basically working in a work force where the solution to 
everything was to increase discipline on the work force, so 
they are more so reluctant to come forward with information as 
far as, my coworker may be doing something, or if I am doing 
something and I want to come out and share that information 
with other workers so that no one has to go through what I went 
through, and things of that sort. So to get this workforce to 
buy into a new safety culture, it is going to take more than 
just throwing that term out there.
    There is a real disconnect in the Agency with the work 
force and management, and it really has to be addressed before 
we can move forward. Like I said before, we can throw the money 
at the infrastructure and the safety mechanisms in WMATA, but 
there is a human element as to workers wanting to do their job 
and to feel good about what they are doing, and more so being 
their brother's keeper, and that is their coworkers and things.
    Ms. Norton. You seem to indicate that besides the safety 
culture there is a whole workers culture or worker/management 
culture that Metro needs to work on.
    I would like to know from Mr. Sarles and Ms. Hersman in 
particular how a non-punitive safety culture fits in with the 
whistleblower and the hotline notion. I mean, do you need 
whistleblowers as much if you have a non-punitive safety 
culture of the kind, for example, that they have in the 
airlines and rail? Or would whistleblowers and hotlines be just 
as necessary if this non-punitive safety culture were to evolve 
in Metro? How do the two fit?
    Ms. Hersman. Well, I think it depends on how robust and 
positive the culture is, and so my question would be how many 
calls do they get in to that hotline, and are they calls that 
effect change. Do they use those calls to change what is going 
on?
    I know that everyone throws around the term of safety 
culture, and it is sometimes a little bit ambiguous to 
understand what the point of a safety culture is, and if you 
don't have trust within an organization, if you don't have 
confidence that things are going to be acted on, it does create 
problems.
    One of the things that we talk about with respect to a 
safety culture, some of the things that we saw at Metro about 
their ineffective safety culture was that they were focused on 
operations, that they didn't have adequate information about 
critical safety issues within the organization; their 
organizational structure didn't effectively communicate.
    One of the things we knew after those two close calls in 
Rosslyn, where we had the same problem occur but it wasn't 
identified, we had a train stop under the river, we had another 
train approach in automatic, and the operator saw that they 
were getting too close. They applied the emergency brakes. Very 
close call. They moved forward. It happened again with another 
train.
    I think the learning lesson there was that they tried to 
identify what the problem was, they couldn't quite figure it 
out, and so they really wanted to get back into service 
quickly, so they just replaced everything and moved on.
    The engineering department did go further. They did take a 
look at what happened, and they developed this test to make 
sure that a track circuit worked, so you have the engineering 
department that has identified the problem, but here is the 
maintenance department, and they don't take this new procedure, 
throw it over the wall, and apply it for the maintenance 
people. So when we went onsite and we interviewed the 
maintenance personnel that had done some of the work right 
there at Fort Totten in the days before the accident, they 
weren't familiar with this procedure, this procedure that 
existed for a long time.
    Metro had requirements that employees had to sign and 
initial procedures when they came out, but if you have multiple 
employees who don't understand a procedure and it is not being 
effectively implemented, that is a breakdown. That is a 
breakdown in the people that are here supervising how do the 
engineering and maintenance folks work together, and what do 
the maintenance people do and what do they know every day.
    So you have to be able to take those issues and break them 
down and say what happened? What failed there? You want to have 
an informed culture so the people who are operating and 
managing the system have knowledge about the factors that are 
affecting the system. You want to have a reporting culture, and 
this is what we are talking about when we talk about non-
punitive reporting. People can report safety concerns. They can 
report errors that they have made and near misses in a just 
culture so people are encouraged and rewarded for providing 
safety information without fear or blame.
    If you have an effective safety culture, it is flexible. It 
can change. It can adapt. A learning culture. So you have to be 
able to have the willingness and the competence to get those 
lessons learned, to draw them, to change things.
    It is not something that is going to happen overnight, and 
there is going to have to be a lot of confidence-building 
measures to take place with the employee work force so they are 
full participants in this culture, so that they feel like they 
own it and they feel like they are a partner. That is why our 
recommendations both to the Federal Transit Administration to 
establish this system-wide across the country and to Metro talk 
about all of the pieces that really need to be involved to make 
this a success.
    If you are not getting a lot of calls on your safety 
hotline, people don't have confidence in it and they are not 
using it. When we look at an airline with a robust reporting 
culture for pilots, they get 10,000 reports a year. I wonder 
how many calls they get on the safety hotline?
    Ms. Norton. Mr. Sarles may want to answer that. He also may 
want to respond to Ms. Hersman's notion of what sounds like a 
classic stovepipe culture where the maintenance did not know 
about the issue she described. Has that been remedied?
    Mr. Sarles. Certainly there are a lot of silos in Metro. As 
I said before, we have started on the path to remedying those 
things. I will not sit here at this point and say it has all 
been remedied. We have a long way to go.
    I will agree that when that safety culture is in place and 
when there is a trust that is referred to before, there will be 
actually, in my view, less need for a safety hotline because if 
there is truly a trust between the workers and the managers and 
the feeling that information can be shared without retribution, 
then people will not have to be a whistleblower and they will 
not have to use the safety line. But it is going to take a long 
time to get there. In the meantime, with those tools available, 
at least if someone feels there is going to be retribution they 
have a channel to do it, and if they call the safety hotline 
the call is treated anonymously.
    Ms. Norton. Mr. DeBernardo, I have a question for you, but 
I think I am going to defer to Mr. Bilbray now, who hasn't had 
the opportunity to ask any questions.
    Mr. Bilbray. Thank you, Madam Chair.
    What is the headways during the rush hour?
    Mr. Sarles. It is around 3 minutes. Depends.
    Mr. Bilbray. Three minutes. Is every heavy rail in the 
country operating with an automated system with a manual 
override?
    Mr. Sarles. Generally most systems in this country are 
manual. They do not have Automatic Train Operation. WMATA was 
more advanced than that.
    Mr. Bilbray. Well, let me answer that and come back, 
because I know that BART, when I was involved in the transit 
system, I ran into BART and a couple others that really 
questioned the automated system for a safety reason, mostly 
because of the relationship between humans, the attention span 
of humans, and when they go down.
    Are you saying that the majority of heavy rail operators in 
this country are operating with a manual operation and then--
let me just say this and allow you to sort of counter it--I was 
told that the safer system would have been a manual operation 
with electronic override, because the fact is the human, when 
they are not engaged, will not have the attention span to 
engage. When you need them, they are not going to be there, was 
basically the argument.
    I want to open that up. I know this is an issue that all of 
us in transit bounce back and forth, but I would love to hear 
your argument on the counterside on that issue.
    Mr. Sarles. Well, my experience has always been with a 
manual system, so it is a little hard to argue since I have 
only been here for a few months.
    The obvious advantage of an Automatic Train Operation is 
that you can probably get a little bit more capacity and more 
reliability.
    Mr. Bilbray. In theory your headway is going to be smaller?
    Mr. Sarles. A little bit. But, more importantly, just like 
when you are driving a car down a highway, if one person slows 
down a little bit more than the other, just for whatever 
reason, you will tend to slow the rest of the traffic. The same 
thing can be when you are in manual operation. One operator 
will operate just slightly differently than the others, maybe 
slow down in one area that another one would not, so that will 
tend to reduce your capacity.
    However, especially in my view here in regard to WMATA, 
before you can return to an automatic train operation you have 
to do that complete system safety analysis that the NTSB has 
recommended and carefully review the results of that, and then 
the Board at that time, with the expertise that we provide to 
it, will have to make a decision on that.
    Mr. Bilbray. You remember in the 1970's the big argument, 
the engineer said the human didn't even have to be on the car. 
The lines I got while we were designing our systems was that 
you are going to have to have them in the cars anyway, and if 
they are sitting there doing nothing you not only loose 
attention, you end up having to pay them more for doing 
nothing, because the stress, basically the fatigue, is higher 
for doing nothing than actually engaging.
    Do you have any experience in the relationship between that 
automated system?
    Let me just say this up front: I have to believe with 
modern technology that there is a way to integrate these two 
components and get the advantage of the human being in there 
and tap more into the advantage of the human, but still being 
able to utilize technology.
    A good example is this configuration of how close the cars 
operate, or whatever. I think there are ways that technology, 
especially with the new high-tech stuff going on, that we can 
really take advantage of increasing efficiency still more, but 
having more safety, and really tapping into the safety of 
having a human in the cab. The oversight people at all even 
consider looking at that in this report?
    Ms. Hersman. The Safety Board has looked at automation in 
all modes of transportation, and you raise an excellent point, 
because one of key issues is that you have to get the human in 
the loop, and so, with respect to human-centered automation, 
the Safety Board sees technology and automation as being a very 
powerful tool to provide a safety redundancy to human beings in 
the event that they have lapses, errors, failures, mistakes.
    It is very important to keep the human in the loop when you 
are designing a system. In fact, we made a recommendation to 
Metro coming out of our 1996 investigation of a Shady Grove 
accident. At the time Metro was operating in automatic all the 
time--it occurred on icy rails where there wasn't good traction 
for the wheels--the train over-sped, and the operator was not 
able to stop as it came in at the end of the line and it hit 
another train.
    We actually made a recommendation to Metro that they needed 
to train their employees to operate in manual and not rely on 
automatic all the time, and to recognize that you can't always 
rely on the technology to operate the train.
    So, based on that recommendation, Metro did change how they 
operated their trains, and they operated them in automatic 
during rush periods but in manual during other periods, and 
that was significant, because after this accident they went to 
all manual on all lines all the time. They had a work force 
that was experienced operating in manual that might not have 
otherwise been if they hadn't changed the mix.
    So we have found that automation can be a problem, whether 
it is in aviation in the cockpit, on the trains. We do see 
technology as a backup or redundant system for human failure.
    Mr. Bilbray. OK. Thank you.
    I apologize, Madam Chair, but these things really are big 
questions. I know that it was openly debated in the 1970's. I 
am old enough to remember that. But there are still schools of 
thought here. I just think there is a whole lot of difference 
between having technology back up human and a human backing up 
technology, because technology traditionally does not fatigue, 
does not text, does not get distracted, and that can't be said 
about human beings. I know this seems like nit picking, but I 
think it can be a major critical issue, and as soon as I saw 
this accident, as somebody who comes from a transit background, 
that was the first question I had.
    I appreciate the chance to be able to dialog here and I 
appreciate the open and frank discussion on this.
    I yield back, Madam Chair.
    Ms. Norton. Thank you very much, Mr. Bilbray.
    Final question for Mr. DeBernardo. Mr. DeBernardo, we have 
spent this time exclusively discussing Metro rail because of 
the NTSB report and the spectacular nature of that tragedy, not 
to mention the other accidents where workers, for example, were 
killed, but I believe the riding public that you represent, in 
terms of the record of this hearing, would also want the 
riders' perspective on safety challenges confronting Metro bus 
and Metro access riders. I say that not in the abstract. We 
have had serious accidents here involving Metro buses at the 
same time there were Metro rail accidents. Could you comment on 
that for us?
    Mr. DeBernardo. I think the concern in those areas in terms 
of Metro access and in terms of Metro bus have to do not with 
technology but with human error, with problems with lack of 
attention.
    Ms. Norton. Traffic.
    Mr. DeBernardo. Traffic, and not mechanical failure. And 
then with Metro Access, in particular, the problems that we 
have seen in the news with not transportation issues but the 
sexual assaults that have occurred due to subcontracting out 
and not sufficient oversight of employees in those areas 
because of subcontracting.
    Ms. Norton. Those have been very concerning to us all. We 
don't want to get off into another subject at this hearing, but 
we want to note those matters for the record.
    The chairman had indicated that he would make every effort 
to be back. He has now sent word that it has become impossible 
for him to come back and has asked me to thank all the 
witnesses and Members who attended this hearing today.
    There may be questions submitted to you in written form. 
Members will have 10 legislative days to do so.
    The subcommittee and full committee look forward to 
continuing this very important beginning dialog following the 
NTSB report.
    Could I just say, with respect to the quality of testimony 
that we have heard here today has been superb and invaluable, 
and we thank you very much for your testimony.
    This hearing is adjourned.
    [Whereupon, at 4:12 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Gerald E. Connolly 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
